Office of Inspector General
Report of Audit



           WATER


EPA’s Great Lakes Program


     Audit Report No. 99P00212



         September 1, 1999
Inspector General Division
 Conducting the Audit:       Northern Audit Division
                             Chicago, Illinois


Regions Covered:             Region 2, 3 and 5


Office Involved:             Office of Research and Development

                             Region 2
                              Division of Environmental Planning
                              and Protection

                             Region 3
                              Water Protection Division

                             Region 5
                              Great Lakes National Program Office
                              Water Division
                              Regional Lake Teams

Cover Photograph             Indiana Dunes National Lakeshore
                              National Park Service
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL
                                   NORTHERN DIVISION
                              77 WEST JACKSON BOULEVARD
                                  CHICAGO, IL 60604-3590

                                        September 1, 1999
MEMORANDUM

SUBJECT:       OIG Report No. 99P00212
               Improving EPA’s Great Lakes Program


FROM:          Anthony C. Carrollo
               Divisional Inspector General for Audits
               Northern Division

TO:            Francis X. Lyons
               Regional Administrator, Region 5
               Great Lakes National Program Manager

        Attached is the final report on our evaluation of EPA’s Great Lakes Program. The
evaluation was done at the request of Region 5 management to provide advice and assistance to
(1) improve processes for developing lakewide management plans (LaMPs) and remedial action
plans (RAPs), and (2) negotiate and implement a U.S. strategy for the Great Lakes. The report
contains recommendations and actions the Agency has taken or plans to take to address both of
these areas.

       Since the report includes issues in the Great Lakes and Region 5, it is addressed to you as
both the Regional Administrator and Great Lakes National Program Manager. However,
throughout the report, we only use the title of Regional Administrator.

      We appreciate your staffs’ efforts in working with us during this evaluation and the
prompt action that you are taking to correct the problems.

        This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.

ACTION REQUIRED

        In responding to the draft report, your office provided corrective actions, with milestone
dates, for each recommendation. Therefore, no further response is required, and we are closing
this report in our tracking system. Please track all corrective actions in the Management Audit
Tracking System.

       We have no objections to the further release of this report to the public.

      If you or your staff have any questions regarding the report, please contact Audit Manager
Kimberly O’Lone at 312-886-3186.




                                                 2
                                                                  Improving EPA’s Great Lakes Program

                                 EXECUTIVE SUMMARY
INTRODUCTION
AND OBJECTIVES                   In March 1998, Region 5 senior management requested advice and
                                 assistance on how to (1) improve processes for developing
                                 lakewide management plans (LaMPs) and remedial action plans
                                 (RAPs), and (2) negotiate and implement a U.S. strategy for the
                                 Great Lakes. The Office of Inspector General’s (OIG) plan for
                                 auditing Environmental Protection Agency (EPA) water programs
                                 also called for a evaluation of the Great Lakes program. To meet
                                 both of these needs, the OIG performed a evaluation with the
                                 objective of determining what the Regional Administrator, Region
                                 51 can do to:

                                 C        improve the LaMP and RAP processes, and

                                 C        develop and implement effective national strategies and
                                          agreements.

BACKGROUND
                                 The Great Lakes Water Quality Agreement (Agreement) between
                                 the U.S. and Canada, was originally signed in 1972, and amended in
                                 1978 and 1987. The stated purpose in the agreement is to restore
                                 and maintain the chemical, physical, and biological integrity of the
                                 Great Lakes basin ecosystem. The 1987 amendments established
                                 LaMPs and RAPs as systematic and comprehensive ecosystem
                                 approaches to address the Great Lakes as a whole and specific
                                 areas of concern throughout the lakes, respectively. The LaMP and
                                 RAP documents also provide an historical record of the assessment
                                 of critical pollutants, proposed remedial actions and their method of
                                 implementation, changes in environmental conditions as a result of
                                 remedial actions, and significant milestones in restoring beneficial
                                 uses of the lakes.

                                 In April 1992, the Great Lakes National Program Office (GLNPO)
                                 issued a joint Federal/State 5-year strategy (strategy) for protecting


        1
          The Region 5 Regional Administrator also serves as the National Program Manager for the Great Lakes
National Program Office. For reporting purposes, we are only using the Regional Administrator title.

                                                      i

                                                                                           Report 99P00212
                                                 Improving EPA’s Great Lakes Program

                  the Great Lakes. The strategy represented a commitment by
                  Federal agencies, states and tribes to achieving specific
                  environmental goals through a full range of coordinated activities.

AREAS FOR
IMPROVEMENT AND   EPA needs to improve two key processes for protecting and
RECOMMENDATIONS   restoring the Great Lakes: LaMPs and RAPs. LaMPs and RAPs
                  are taking longer than expected to complete. For example, while a
                  draft LaMP for Lake Michigan was first published in 1992, the
                  LaMP was never finalized, thereby not meeting the statutory
                  deadline of January 1, 1994. Officials currently plan to issue a
                  LaMP document for Lake Michigan by April 21, 2000. To date, no
                  U.S. RAPs have had all of their beneficial use impairments
                  corrected.

                  To improve the LaMP process, EPA needs to (1) place a priority
                  on issuing written plans for Lakes Michigan, Erie and Huron during
                  FY 2000; and (2) propose to Great Lakes partners and the
                  International Joint Commission (IJC) revising the LaMP process to
                  address issues that have hindered completing the plans. To improve
                  the RAP process, Region 5 needs to establish a coordinator to
                  better organize the RAP liaisons. Finally, Region 5's work on
                  LaMPs and RAPs would benefit from clarifying the organizational
                  roles and responsibilities of the offices, divisions and teams. These
                  actions are needed to reach the goal of restoring and maintaining
                  the chemical, physical, and biological integrity of the Great Lakes.

                  GLNPO does not have official agreements with other EPA offices
                  that work in the Great Lakes. These offices include Regions 2, 3,
                  5, and the Office of Research and Development (ORD). As a
                  result, relationships between Region 5 offices working in the Great
                  Lakes have suffered, and GLNPO and ORD did little coordination
                  on research planning. GLNPO should enter into agreements with
                  all of these entities to identify the roles and responsibilities of each
                  in the Great Lakes.

                  GLNPO officials can learn from problems they encountered
                  creating and implementing the 1992 strategy. In developing the
                  next strategy, GLNPO should strive to (1) obtain buy-in and


                                     ii

                                                                         Report 99P00212
                                               Improving EPA’s Great Lakes Program

                  commitment from all parties, (2) focus on goals, (3) include
                  performance measures, and (4) provide accountability for
                  implementation which will result in a meaningful strategy that helps
                  bring together Great Lakes efforts and activities. From this,
                  GLNPO can design a new strategy that will fulfill a new purpose
                  for the Great Lakes and help carry efforts forward to the
                  millennium.

                  Details on each of these findings and recommendations are
                  contained in Chapters 2 through 4.

AGENCY COMMENTS
AND ACTIONS       In response to the draft report, the Regional Administrator, Region
                  5, agreed with the recommendations or proposed alternative actions
                  to address the findings. Action plans, with milestone dates, were
                  also provided. A summary of the response and action plans is
                  included throughout the report, and a complete copy of the
                  response is included in appendix 1. The response includes details
                  on the resources and other support needed to implement the
                  report’s recommendations.

                  The Regional Administrator outlined plans to accelerate the LaMP
                  and RAP processes. At the April 1999 Region 5 and State
                  Environmental Directors meeting, the states issued a challenge to
                  complete LaMPs for Lakes Michigan, Erie, and Superior by April
                  21, 2000 (Earth Day). LaMP groups have prepared detailed plans
                  for meeting the challenge. For Lake Huron, a report describing the
                  environmental problems and actions that need to be taken will also
                  be issued by April 2000. To accelerate the RAP process, Region 5
                  will work with the states on roles, schedules, and grant funds to be
                  devoted to RAPs. The liaison function will be reorganized to
                  devote resources towards those RAPs most in need of EPA
                  assistance.

                  The Regional Administrator also plans to issue a new Great Lakes
                  Strategy by April 2000. In developing the strategy, the Regional
                  Administrator has agreed to consider how best to implement the
                  recommendations in the report. The issue of roles and



                                    iii

                                                                     Report 99P00212
                                              Improving EPA’s Great Lakes Program

                 responsibilities of EPA offices working in the Great Lakes will be
                 addressed when developing the Great Lakes strategy.

OIG EVALUATION
                 The Agency’s actions, when completed, will address the findings
                 and recommendations in the report.




                                   iv

                                                                    Report 99P00212
                                                                               Improving EPA’s Great Lakes Program

                                               Table of Contents
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTERS
1   INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                LaMPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                RAPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2        KEY GREAT LAKES ACTIVITIES NEED STRENGTHENING . . . . . . . . . . . . . . . . 6
              Improving the LaMP Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
              Improving EPA Involvement in RAPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
              Clarifying Organizational Roles and Responsibilities . . . . . . . . . . . . . . . . . . . . . 15
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

3        RESPONSIBILITIES OF EPA OFFICES IN THE GREAT LAKES NEED
         DEFINITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
              Agency Comments and Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

4        GREAT LAKES STRATEGY NEEDS IMPROVEMENT . . . . . . . . . . . . . . . . . . . . .                                         22
             Buy-in and Commitment Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   23
             Focus on Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     25
             Include Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               26
             Ensure Implementation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          26
             Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   27
             Agency Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       27




                                                                v

                                                                                                             Report 99P00212
                                                                             Improving EPA’s Great Lakes Program

EXHIBITS

1   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   29
2   Status of LaMPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      32
            Lake Erie . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    32
            Lake Huron . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       33
            Lake Michigan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        34
            Lake Ontario . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       34
            Lake Superior . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      35

3   Status of RAPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

4   Scope, Methodology, and Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
           Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
           Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

APPENDICES

1   Region 5 Regional Administrator’s Response
     to the Draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

2   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55




                                                             vi

                                                                                                            Report 99P00212
                                                        Improving EPA’s Great Lakes Program

                                     ABBREVIATIONS

Act          Clean Water Act

Agreement    Great Lakes Water Quality Agreement

EPA          U.S. Environmental Protection Agency

GLNPO        Great Lakes National Program Office

IJC          International Joint Commission

Lake Teams   Region 5 teams for Lake Michigan, Lake Superior, and Lake Erie

LaMPs        Lakewide Management Plans

OIG          Office of Inspector General

ORD          Office of Research and Development

RAPs         Remedial Action Plans

Strategy     1992 Joint Federal/State 5-year Strategy




                                              vii

                                                                              Report 99P00212
                                          Improving EPA’s Great Lakes Program

                      CHAPTER 1
                      Introduction
PURPOSE
             In March 1998, Region 5 senior management requested advice and
             assistance on how to (1) improve processes for developing
             lakewide management plans (LaMPs) and remedial action plans
             (RAPs), and (2) negotiate and implement a U.S. strategy for the
             Great Lakes. The Office of Inspector General’s (OIG) plan for
             auditing EPA water programs also called for a evaluation of the
             Great Lakes program.

             We have met with the Deputy Regional Administrator, the Region
             5 Senior Leadership Team, the Water Division Director, the Great
             Lakes National Program Office Director, and the Region 5 Lake
             Team Managers, to evaluate our preliminary recommendations for
             improvement. Since there was an acknowledgment of the issues
             and that corrective action was needed, the report focuses on
             recommended improvements.

BACKGROUND
             The Great Lakes - Superior, Michigan, Huron, Erie, and Ontario -
             are an important part of the physical and cultural heritage of North
             America. Spanning more than 750 miles from west to east, they
             provide water for consumption, transportation, power, recreation,
             and a host of other uses. Environmental challenges within the
             Great Lakes include: contaminated sediments, the effects of exotic
             species, and loss of habitat. Impacts on people include fish
             advisories and beach closings. The Great Lakes basin is home to
             more than one-tenth of the U.S. population, and has some of the
             world’s largest concentrations of industrial capacity.

             The Great Lakes region has a long tradition of interjurisdictional
             cooperation on key regional issues. Four of the Great Lakes are
             directly shared with Canada. The Great Lakes basin includes all
             land area that is drained by, or drains into, the Great Lakes. This
             includes all or part of eight states: Michigan, Minnesota, Wisconsin,
             Illinois, Indiana, Ohio, Pennsylvania, and New York; and two
             Canadian provinces.


                               1

                                                                 Report 99P00212
                                     Improving EPA’s Great Lakes Program

        The 1987 amendments to the Clean Water Act (Act) established
        EPA as the lead Agency for working with Federal, state, and local
        agencies to meet the goals of the Great Lakes Water Quality
        Agreement (Agreement). Within EPA there are several
        organizations with an interest in the Great Lakes. Regions 2, 3, and
        5 all have at least one state bordering a Great Lake. ORD conducts
        some research related to the Great Lakes. GLNPO coordinates
        EPA’s efforts in the Great Lakes as the national program office.

        For fiscal year 1999, GLNPO had a staff of about 46 and a budget
        of almost $15 million. GLNPO sought proposals for $3.8 million in
        grants in the areas of ecosystem indicators, contaminated
        sediments, habitat restoration and protection, pollution prevention,
        and LaMPs and RAPs. However, it is important to note that
        GLNPO’s Great Lakes spending is only a small portion of the
        money EPA spends to restore and protect the Great Lakes basin.
        For example, the entire state of Michigan is part of the Great Lakes
        basin, and therefore most Federal and state activities in Michigan
        that affect the water, air and land have an impact on the Great
        Lakes. (See exhibit 1 for additional background information.)

LaMPs
        LaMPs are plans for each of the Great Lakes as a whole. The
        Agreement required that the U.S. and Canadian Governments, in
        consultation with appropriate state and provincial governmental
        organizations, implement LaMPs for each of the Great Lakes,
        except for Lake Michigan which is the responsibility of the U.S.
        Government. The Clean Water Act (Act) further required EPA to
        issue a LaMP for Lake Michigan for public comment by January 1,
        1992, submit it to the International Joint Commission (IJC) by
        January 1, 1993, and publish it in the Federal Register by January 1,
        1994. The Act stated that there was nothing to preclude EPA from
        developing LaMPs for any of the other Great Lakes. It did not
        include a specific due date for any of the other LaMPs because they
        required coordination with Canada, and therefore were not totally
        within EPA’s control. (See exhibit 2 for information on the status
        of each of the LaMPs.)




                          2

                                                            Report 99P00212
                                    Improving EPA’s Great Lakes Program

       The Agreement set out a four-stage process for submitting LaMPs
       to the IJC for review and comment (see table 1).

                                   Table 1
                             LaMP Document Process
          Stage                Timing of document submission
             1      When definition and description of the environmental
                    problem and the causes for the use impairments
                    (referred to as the problem definition statement) has
                    been completed
             2      When a schedule of load reductions is determined
             3      When remedial measures are selected
             4      When monitoring indicates that critical pollutants are
                    no longer impairing beneficial uses


RAPs
       RAPs are plans for specific areas of concern along the Great Lakes
       (see figure 1). The Agreement defines an area of concern as a
       geographic area where there is an impairment of a beneficial use or
       the ability of an area to support aquatic life. For example, an area
       where there are fish advisories, beach closings, or contaminated fish
       tissue. The Agreement states that the Federal government is to
       cooperate with state governments in ensuring RAPs are developed.
       Under the Critical Programs Act, the role of EPA is to ensure that
       states timely submit RAPs. Also in the Critical Programs Act,
       states were required to submit RAPs to GLNPO by June 30, 1991,
       to the IJC by January 1, 1992, and incorporate the RAPs into their
       water quality plan by January 1, 1993.

       There are 43 areas of concern in the Great Lakes. The U.S.
       contains 31 areas of concern, five of which it shares with Canada.
       The remaining 12 areas of concern are in Canada. To date, one
       area of concern in Canada has been delisted, meaning that all
       beneficial use impairments were addressed.



                         3

                                                           Report 99P00212
                                                  Improving EPA’s Great Lakes Program

                     Toxic sediments is one of the major issues affecting all U.S. and
                     shared areas of concern. While costs of remediating toxic
                     sediments vary widely, it can cost on average $5.6 million to
                     remediate sediments in one area of concern. In addition, Superfund
                     sites impact about half (22 of 31) of the areas of concern, further
                     complicating the issues being addressed. See exhibit 3 for a
                     detailed table on the status of RAPs.

                                    Figure 1: Forty-Three Areas of Concern




Restoration of the   Since the Agreement was signed in 1972, actions of EPA, other
Great Lakes          Federal agencies, and states have resulted in restoration of areas of
                     the Great Lakes basin ecosystem.

                     C      Through a combination of pollution prevention and site
                            restoration activities, the release of toxic substances into the
                            environment has been reduced, dramatically improving the
                            health of many species of fish and wildlife.

                     C      Actions to get the lead out of gasoline have reduced the
                            level of atmospheric loadings of lead to the Great Lakes.




                                       4

                                                                          Report 99P00212
                                          Improving EPA’s Great Lakes Program

              C      Cancellation of the pesticide DDT increased the breeding
                     populations of bald eagles, peregrine falcons, and osprey in
                     the Great Lakes basin.

SCOPE AND
METHODOLOGY   The evaluation was conducted from July 10, 1998, to May 17,
              1999. Fieldwork was performed primarily in Region 5, with limited
              work performed in Regions 2 and 3. Except as noted in exhibit 4,
              we performed our work in accordance with Government Audit
              Standards, 1994 Revision, issued by the Comptroller General of the
              U.S.

              For further details on scope and methodology, see exhibit 4.




                                5

                                                                 Report 99P00212
                                                 Improving EPA’s Great Lakes Program

                        CHAPTER 2
         Key Great Lakes Activities Need Strengthening

                   EPA needs to improve two key processes for protecting and
                   restoring the Great Lakes: LaMPs and RAPs. LaMPs and RAPs
                   are taking longer than expected to complete. For example, while a
                   draft LaMP for Lake Michigan was first published in 1992, the
                   LaMP was never finalized, thereby not meeting the statutory
                   deadline of January 1, 1994. Officials currently plan to issue a
                   LaMP document for Lake Michigan by April 21, 2000. To date,
                   no U.S. RAPs have had all of their beneficial use impairments
                   corrected.

                   To improve the LaMP process, EPA needs to (1) emphasize issuing
                   written documents for Lakes Michigan, Erie and Huron during FY
                   2000; and (2) propose revising the LaMP process to address issues
                   that have hindered the issuance of written plans. To improve the
                   RAP process, Region 5 needs to better organize the RAP liaisons.
                   Finally, Region 5's work on LaMPs and RAPs would benefit from
                   clarifying the organizational roles and responsibilities of the offices,
                   divisions and teams. These actions are needed to reach the goal of
                   restoring and maintaining the chemical, physical, and biological
                   integrity of the Great Lakes.

IMPROVING THE
LaMP PROCESS       Progress of LaMPs varied widely, as measured by issuance of
                   documents to the IJC (table 2). The LaMPs for Lakes Ontario and
                   Superior were the furthest along, a stage 1 problem definition
                   document had been issued for both. Federal and state officials have
                   been working on the stage 1 problem definition document for Lakes
                   Michigan and Erie for nine and six years respectively, and expect to
                   take at least another year. The LaMP process for Lake Huron has
                   not been started yet. (Background information on LaMP status is
                   included in exhibit 2.)




                                      6

                                                                         Report 99P00212
                                                                   Improving EPA’s Great Lakes Program

                                                                   Table 2
                                                          Status of Stage 1 LaMPs
                                                                                         To IJC

                                                   Lake                 Year        Actua    Estimat
                                                                       Started        l         e

                                        Erie                            1993                  2000

                                        Huron

                                        Michigan                        1990                  2000

                                        Ontario                         1996        1998

                                        Superior
                                        - Chemical                      1991        1995
                                                                                      2
                                        - Non-chemical/ecosystem        1994                  2000


                                  Much of the delay in issuing LaMPs was due to the complexity of
                                  the LaMP development process, which (1) addressed broad issues
                                  such as toxics and the ecosystem; (2) involved many stakeholders at
                                  all levels of governments, as well as non-governmental
                                  organizations; and (3) often required international coordination.
                                  However, EPA can take some actions to improve the LaMP
                                  development process.

 Issue LaMP Documents              We recommend that by September 2000 the Regional
 and Address Lake Huron            Administrator, Region 5, work with other appropriate
                                   Federal, state and Canadian government organizations to:

                                   C        Issue LaMP documents for Lakes Michigan and Erie
                                            describing what is known about the extent of the
                                            problem and load reductions and remedial measures
                                            that are needed (2.1).

                                   C        Decide what action to take on the Lake Huron LaMP,
                                            and when activities will begin (2.2).


        2
         While a LaMP has not been issued, a discussion paper, Ecosystem Principles and Objectives, Indicators
and Targets for Lake Superior, was issued in 1995.

                                                      7

                                                                                            Report 99P00212
                             Improving EPA’s Great Lakes Program


Completing plans for each of the Great Lakes is an important part
of ensuring that Federal and state activities are adequate to protect
and restore the Great Lakes. The Agreement requires written plans
describing the problem, the reductions in chemicals that are needed,
and the remedial measures that are needed. While activities to
restore and maintain the Lakes were ongoing, these activities were
taking place without such written plans, except for Lake Ontario
and some components of Lake Superior. Without a plan or LaMP,
there was no single document that (1) provided a guide for future
work, (2) identified who needed to be involved, (3) established lines
of accountability, and (4) served as a basis for measuring progress.
The lack of plans also raises questions whether EPA was doing the
right, and highest priority, activities needed to protect the Great
Lakes. Without written plans describing the problems and what
needs to be for a Lakes, there is also a question of whether the
activities being done are the most cost effective.

Besides the environmental impact, the length of time that it had
taken to produce LaMP documents resulted in frustration and
skepticism about the LaMP process. Region 5 and state staff who
worked on the LaMPs expressed frustration with the process, the
amount of time involved, and the lack of progress in completing
documents. Also, state officials were hesitant to start the LaMP for
Lake Huron because of the problems they saw with the other
LaMPs.

Due to the lack of progress on LaMPs and the problems the lack of
a plan has created, EPA needs to place renewed emphasis on
issuing initial LaMP documents during the remainder of FY 1999
and 2000.

C      For Lakes Michigan and Erie, EPA needs to work with its
       partners to issue a document describing what is known
       about the extent of the problem, and the needed load
       reductions and remedial measures. Region 2 successfully
       used this approach in completing the Lake Ontario LaMP.

       In working on the Lake Michigan and Erie LaMPs, Region
       5 should consider the methods used for completing the Lake

                  8

                                                   Report 99P00212
                                              Improving EPA’s Great Lakes Program

                         Ontario and Superior LaMPs. Region 2 used a technical
                         writer and a dedicated staff member, who consulted with
                         other staff, to write the Lake Ontario LaMP. For Lake
                         Superior, members of the LaMP committee, which include
                         EPA, other Federal agencies, states and Canadian
                         representatives, wrote the LaMP. EPA did have a person
                         serving full-time as the LaMP writer, but had also been
                         temporarily serving as the Lake team manager. Region 5's
                         team structure, where staff spend 10 to 30 percent of their
                         time on team activities, had not been effective because the
                         time spent on team activities was taken up in meetings,
                         leaving little time for actually writing the document.

                  C      For Lake Huron, EPA needs to decide how it will restore
                         and maintain the chemical, physical, and biological integrity
                         of the lake. EPA should also let the public know what it
                         plans to do for Lake Huron, and when it plans to start.

Agency Comments   The Regional Administrator agreed with recommendation 2.1. At
and Actions       the April 1999 Region 5 and State Environmental Directors
                  meeting, a challenge was issued to complete stages 1 through 3 of
                  the LaMPs for Lakes Michigan, Erie, and Superior by April 21,
                  2000 (Earth Day). Workgroups have developed plans for
                  accelerating completion of the LaMPs, and the state representatives
                  are in general agreement with the proposed schedules. The
                  workgroups will work with the LaMP Management Committees
                  and Canada (for Lakes Erie and Superior) to reach agreement on
                  the schedules.

                  State and regional commitment is an important part of the Agency’s
                  strategy to accelerate LaMP development. For Lakes Michigan and
                  Erie, state commitment is needed to write documents and to
                  expedite the review and approval process. All Region 5 offices and
                  divisions must stand ready to support acceleration of LaMP
                  development. Regional resources have been allocated to the goal.
                  There also needs to be a short-term focusing of existing program
                  staff with needed expertise to assist with the LaMPs.

                  The Agency’s action plan for the Lakes Michigan, Erie, and
                  Superior LaMPs is:

                                    9

                                                                     Report 99P00212
                              Improving EPA’s Great Lakes Program

                          Table 3
       Action Plan For Lakes Michigan, Erie and Superior

                  Action                               Date
 Detailed schedules through LaMP              Summer 1999
 Management Committees
 US Policy Committee Meeting to ensure        November 1999
 progress on meeting schedule deadlines       Spring 2000
 LaMP documents issued (see appendix 1        April 2000
 for details on what will be included in
 the documents)
 Finalized LaMP documents                     December 2000/2001

The Regional Administrator agreed with recommendation 2.2.
Regarding Lake Huron, the state of Michigan developed a draft
Lake Huron Initiative report. While the initiative is not currently a
LaMP, it contains many elements of a LaMP. The state of
Michigan would like to use the initiative as a way to reinvent
lakewide management planning.

Completion of the Lake Huron Initiative report will require
Canadian approval. Environment Canada has informed EPA that
they will not be able to take up the issue of a LaMP for Lake Huron
until the year 2000, due to resource constraints. During the year
2000, EPA will work with Michigan and Environment Canada
regarding progress and the future of the initiative.




                  10

                                                    Report 99P00212
                                                         Improving EPA’s Great Lakes Program

                          EPA’s action plan for Lake Huron is:

                                                         Table 4
                                                 Action Plan for Lake Huron

                                          Action                               Date
                           Draft Lake Huron Initiative             June 1999
                           Initiative meetings                     June 1999
                                                                   January/February 2000
                           Initiative document                     April 2000
                           Lake Huron Symposium                    Early 2001


Revise the LaMP Process    We recommend that the Regional Administrator, Region 5
                           work with Canada, other Federal agencies, and states to
                           identify, and implement, ways to make the LaMP process
                           more efficient (2.3).

                          Attempts to get complete information regarding problem
                          identification hindered EPA’s and Canada’s issuing of stage 1
                          LaMPs. In fact, throughout the lifetime of the LaMP new
                          information will likely become available regarding the problems of
                          each specific Great Lake. Also, while the Agreement calls for
                          issuing documents in four distinct stages, EPA found that in
                          practice the stages overlap. For example, all of the problem
                          identification was not completed before load reduction targets were
                          set or remedial actions began.

                          The Lake Ontario LaMP did not meet the strict definition of a stage
                          1 LaMP. The LaMP included all information that EPA and the
                          other parties to the agreement had at the time, notwithstanding
                          whether the information related to problem identification, load
                          reduction targets, or remedial actions. Where there was incomplete
                          information, the LaMP included a plan for obtaining the
                          information. EPA has not received any negative feedback about
                          using this approach for a LaMP.


                                           11

                                                                            Report 99P00212
                                               Improving EPA’s Great Lakes Program

                  Since the concept of issuing LaMPs in “stages” does not appear to
                  be working, EPA should work with Canada, other Federal agencies,
                  and states to identify ways for making the LaMP process more
                  efficient. Some of the options that EPA staff suggested include:

                  C      issuing an initial document based on existing information
                         and a plan for the next several years, and then updating the
                         document every two years, such as what is being done with
                         the Lake Ontario LaMP;

                  C      combining stages 1, 2 and 3 into one document;

                  C      revisiting the definition of LaMP as contained in the
                         Agreement.

Agency Comments   In responding to recommendation 2.3, the Regional Administrator
and Actions       stated that LaMP development is now being made more efficient
                  through streamlining and acceleration. (See response to
                  recommendations 2.1 and 2.2.) A workgroup has developed a
                  number of key recommendations that will be implemented. EPA
                  will also use the process for development of the Great Lakes
                  Strategy to identify and implement ways to make the LaMP process
                  more efficient. To gain support of Canadian counterparts, the
                  Binational Executive Committee discussed how to improve the
                  LaMP process at their July 1999 meeting.

IMPROVING EPA
INVOLVEMENT       Region 5 RAP liaisons were not as effective as they could be in
IN RAPs           working with the state and local officials. Region 5 assigned staff
                  to serve as liaisons for each of the RAPs within the Region.
                  However, the liaisons generally did not coordinate with each other
                  and many had not received training recently regarding their
                  responsibilities. As a result, Region 5 was not as effective as it
                  could be in coordinating with RAPs.

                  According to the Act, states are primarily responsible for
                  completing RAPs, and were to incorporate them into state water
                  quality plans by January 1, 1993. EPA’s role was to ensure that
                  states complete RAPs. Regions 2, 3 and 5 approached their


                                   12

                                                                     Report 99P00212
                                                                  Improving EPA’s Great Lakes Program

                                involvement in the RAPs differently.3 For example, in Region 5,
                                one person is assigned to be the RAP liaison for each RAP in the
                                Region. The liaison’s goal was to facilitate and coordinate
                                communication regarding the RAPs. In Regions 2 and 3, one
                                person serves as the contact point and provides technical support
                                for all of the RAPs in each region.

RAP Coordinator                     We recommend that the Regional Administrator, Region 5
Needed                              establish a RAP coordinator in Region 5 (2.4).

                                Region 5 needs to designate someone to be responsible for
                                coordinating RAP liaison activities. The coordinator should be
                                responsible for:

                                C        defining the roles and responsibilities,
                                C        training new liaisons,
                                C        facilitating communication among the RAP liaisons,
                                C        collecting information for management on the status of
                                         RAPs, and
                                C        ensuring there is adequate coordination with all RAP
                                         organizations.

                                In Region 5, the responsibility for organizing the RAP liaisons was
                                not clear. The Region 5 Lake Teams, GLNPO and the Water
                                Division could all have been potentially responsible for organizing
                                the RAP liaisons. GLNPO and the Water Division had staff who
                                were considered RAP coordinators, but neither of them performed
                                all of the activities that were needed to make the RAP liaisons more
                                effective. In GLNPO, the RAP coordinator only tracked the status
                                of the RAPs. In the Water Division, the RAP coordinator kept a
                                list of all the RAP liaisons, but the list was not accurate. As for the
                                Region 5 Lake Team managers, while they put together an initial
                                training program for the liaisons, they had other responsibilities that
                                prevented them from devoting the time that was needed to continue
                                organizing the RAP liaisons.



    3
        Seventy-eight percent of the U.S. and binational RAPs are in Region 5.

                                                    13

                                                                                     Report 99P00212
                                                Improving EPA’s Great Lakes Program

                  EPA was to work with and ensure that states complete RAPs.
                  Liaisons were a way for EPA to provide information and technical
                  resources to RAPs and to monitor their progress. Better organized
                  liaisons will increase their effectiveness, and assist in further the
                  progress of all RAPs.

Agency Comments   In responding to recommendation 2.4, the Regional Administrator
and Actions       did not believe the establishment of a coordinator was needed for
                  RAPs, but did outline a number of other actions to accelerate
                  RAPs. Rather than assigning a liaison to all RAPs, decisions will be
                  made on a case-by-case basis, and the liaison’s level of involvement
                  may differ for each RAP. In general, a liaison will not be assigned
                  for RAPs that have completed stage 2. All Region 5 divisions,
                  offices and teams will be asked to provide some expertise and
                  leadership where the RAP objectives align with program objectives.

                  The regional lake teams will serve as the forum for RAP
                  coordination. Lake team managers will be given a renewed charge
                  to serve as the umbrella for the RAPs in their lake, and will be
                  responsible for providing orientation to the RAP liaisons. The
                  orientation will define the roles and responsibilities of the liaison.
                  As RAPs progress to different stages of completion, the team
                  managers will work with the liaison to redefine their role.

                  EPA’s action plan for accelerating RAPs is:




                                    14

                                                                       Report 99P00212
                                                Improving EPA’s Great Lakes Program

                                                Table 5
                                         Action Plan for RAPs

                                   Action                           Timing
                    Initiate RAP challenge with states     July 1999
                    Discussion with states on roles,       July/August 1999
                    schedules, and grant funds
                    Renewed charge to team mangers         August 1999
                    RAP orientation by team managers       As liaisons are appointed
                                                           and RAP stages change
                    RAP challenge discussion at US         November 1999
                    Policy Committee meeting
                    Progress report at Binational          December 1999
                    Executive Committee meeting

OIG Evaluation     In responding to the draft report, the Regional Administrator
                   proposed actions that were more comprehensive than we originally
                   recommended. The proposed actions, when implemented, will
                   increase the effectiveness of the RAP liaisons and increase state
                   progress in completing RAPs. We support the actions the Region
                   has proposed to take.

CLARIFYING
ORGANIZATIONAL     In 1995, Region 5 reorganized, maintaining a media-based division
ROLES AND          structure and adding regional teams, including teams for Lakes
RESPONSIBILITIES   Michigan, Superior, and Erie (lake teams) (see figure 2). The lake
                   teams generally have one permanent staff member, the team
                   manager. Team members are from Region 5's media divisions and
                   other offices. While some team members may be full time, most
                   team members spend between 10 and 30 percent of their time on
                   team activities. The team managers each report to a division or
                   office director(s).




                                    15

                                                                       Report 99P00212
                            Improving EPA’s Great Lakes Program
              Figure 2: Region 5 Organization Chart




The lake teams were to:

C      improve multimedia coordination;
C      be focal points for resources and provide strategies for each
       of the lakes, including the LaMPs; and
C      rely upon programs to find solutions to problems.

                 16

                                                   Report 99P00212
                                                     Improving EPA’s Great Lakes Program


                       The media divisions and offices were to use the teams to focus their
                       efforts in the Great Lakes.

Clarify LaMP and RAP    We recommend that the Regional Administrator, Region 5
Responsibility          clarify and communicate the priority and responsibility of
                        LaMPs and RAPs in Region 5 (2.5).

                       While the Region 5 team structure was to facilitate multimedia
                       coordination of activities, there was some confusion as to the
                       priority and responsibility for LaMPs and RAPs. When LaMP and
                       RAP activities matched the priorities of media programs, the
                       activities generally were completed. However, where activities
                       such as writing a LaMP document and serving as a RAP liaison did
                       not fit with media program priorities, it was less likely that the
                       activities were supported or completed timely. LaMP and RAP
                       activities are both areas where improvements are needed.

                       Without the support of the Region 5 divisions and offices, teams
                       are unlikely to accomplish specific tasks. Tasks that are the
                       responsibility of the teams are indirectly the responsibility of all
                       divisions and offices in Region 5. Region 5 divisions and offices
                       need to recognize this responsibility and communicate it to their
                       staff. Not doing so will result in continued problems with
                       completing LaMPs and less than effective use of RAP liaison
                       resources.

Agency Comments        In responding to recommendation 2.5, the Regional Administrator
and Actions            agreed that Great Lakes activities, such as RAPs and LaMPs, that
                       are outside typical media priorities often receive less attention
                       within Region 5 programs than headquarters driven requirements.
                       Attention to these activities can be increased in several ways. One
                       way is the participation of Region 5 programs in the development
                       and implementation of the Great Lakes strategy. A second way is
                       through the Region 5 planning process where LaMPs and RAPs
                       will be highlighted to management and staff. The third way is to
                       align planning, budgeting, and accountability systems to support
                       completion of LaMPs and RAPs.



                                         17

                                                                            Report 99P00212
                                                       Improving EPA’s Great Lakes Program
                     Region 5's action plan and milestone dates to address the
                     recommendation are:

                                                        Table 6
                                                 Action Plan for RAPS

                                              Action                          Date
                         Lake Summit with Region 5 senior managers       June 25, 1999
                         Summary of agreements from Lake Summit          July 1999
                         Region 5 lake team resource requests            July 1999
                         conveyed
                         Resource decisions made by Region 5             September 1999
                         Regional results plan                           October 1999
                         Midyear goal reporting                          March 2000
                         Lake Summit with Region 5 senior managers       April 2000


GLNPO’s Role Needs       We recommend that the Regional Administrator, Region 5
Definition               define and communicate the role of GLNPO in LaMPs and
                         RAPs (2.6).

                     GLNPO’s involvement in LaMPs and RAPs was limited. GLNPO
                     activities included:

                     C         tracking the status of LaMPs and RAPs,
                     C         serving on LaMP teams, and
                     C         providing grant funds for projects associated with LaMPs
                               and RAPs.

                     While GLNPO was part of the LaMP teams, several team members
                     told us that they continued to have problems getting information
                     from GLNPO. According to the lake team managers, GLNPO staff
                     generally did not offer information. Instead, they would find out
                     accidently that GLNPO had information they needed. On the other



                                         18

                                                                          Report 99P00212
                                                Improving EPA’s Great Lakes Program
                  hand, GLNPO managers stated that the lake team managers did not
                  frequently ask for information.

                  Early in the history of the LaMP process, GLNPO and the Region 5
                  Water Division management decided that the Water Division would
                  be primarily responsible for LaMPs and RAPs. This was a
                  controversial decision at the time, and continues to be a sensitive
                  issue. As a result, GLNPO and the Water Division had limited
                  communication regarding LaMPs and RAPs. In 1995,
                  responsibility for LaMPs and RAPs was transferred to the Region 5
                  lake teams. While coordination between GLNPO and the lake
                  teams increased, coordination and communication problems
                  continued. As a first step, officials need to define the role GLNPO
                  has with LaMPs and RAPs. Once defined, GLNPO needs to
                  devote the resources necessary to fulfill that role.

Agency Comments   The Regional Administrator agreed with recommendation 2.6 and
and Actions       and stated that it is important that the role of all EPA programs in
                  LaMPs and RAPs be better defined and communicated. LaMP and
                  RAP roles and responsibilities will be addressed during the
                  development and implementation of the Great Lakes strategy,
                  which is discussed in Chapter 4.

CONCLUSION
                  While LaMPs and RAPs are complex, EPA can take actions to
                  further the progress of both. Most important, officials need to
                  clearly communicate the priority and responsibility of LaMPs and
                  RAPs to all Region 5 staff. Without this, other actions directed
                  toward issuing LaMP documents and organizing RAP liaisons will
                  not be as effective as they could be. LaMPs and RAPs are the
                  primary processes called for in the Agreement to coordinate Federal
                  and state activities directed toward restoring beneficial uses to the
                  Great Lakes. The less effective these processes are, the less likely it
                  is that the goal of restoring and maintaining the chemical, physical,
                  and biological integrity of the Great Lakes will be met.




                                    19

                                                                       Report 99P00212
                                                                    Improving EPA’s Great Lakes Program

                                      CHAPTER 3
                             Responsibilities of EPA Offices
                           in the Great Lakes Need Definition

                                  GLNPO does not have official agreements with other EPA offices
                                  that work in the Great Lakes, as required by the Clean Water Act4.
                                  These offices include Regions 2, 3, 5, and ORD. As a result,
                                  relationships of Region 5 offices working in the Great Lakes have
                                  suffered, and GLNPO and ORD did little coordination on research
                                  planning. GLNPO should enter into one, or multiple, agreements
                                  with these entities to identify the roles and responsibilities of each in
                                  the Great Lakes.

                                    We recommend that the Regional Administrator, Region 5
                                    prepare an agreement(s) that outlines the roles and
                                    responsibilities of GLNPO, ORD, Regions 2, 3, and 5 in the
                                    Great Lakes (3.1).

                                  According to the Act, one of the functions of GLNPO is to
                                  coordinate actions of the Agency, both headquarters and regions,
                                  aimed at improving Great Lakes water quality. The legislative
                                  history of this section of the Act appears to indicate that Congress
                                  intended these agreements to ensure that intergovernmental
                                  coordination occurred, as well as coordination within EPA.

                                  GLNPO’s relationships with Region 5 and ORD were adversely
                                  affected because the agreements were not in place, while
                                  relationships with Region 2 and 3 were not. In Region 5,
                                  GLNPO’s working relationship with other divisions and teams
                                  suffered from a lack of clear definition of roles and responsibilities,




        4
           Section 118 (c) (8) of the Act requires that GLNPO enter into agreements with the various
organizational elements of the Agency working in the Great Lakes.

                                                       20

                                                                                              Report 99P00212
                                               Improving EPA’s Great Lakes Program
                  as described earlier. GLNPO and ORD also did little coordination
                  to plan research projects in the Great Lakes.

CONCLUSION
                  A clear description of roles and responsibilities of GLNPO, ORD,
                  Regions 2, 3, and 5, would help improve adversely affected
                  relationships and maintain good working relationships. Working
                  together to identify roles and responsibilities would also help
                  coordinate and clarify activities each was responsible for in the
                  Great Lakes. This would help improve working relationships and
                  efficiency of work in the Great Lakes to the benefit of the
                  environment. Finally, taking a step to maintain good working
                  relationships now would help prevent deterioration of those
                  relationships in the future, and help prevent any negative impact on
                  the Great Lakes.


AGENCY COMMENTS
AND ACTIONS       The Regional Administrator agreed with the recommendation.
                  Roles and responsibilities of GLNPO, ORD, and Regions 2, 3 and 5
                  will be updated and articulated as part of the Great Lakes Strategy
                  planning process. The action plan and milestone dates for the Great
                  Lakes Strategy are described in Chapter 4.




                                   21

                                                                     Report 99P00212
                                     Improving EPA’s Great Lakes Program

             CHAPTER 4
Great Lakes Strategy Needs Improvement

       GLNPO officials can learn from problems they encountered
       creating and implementing the 1992 Joint Federal/State 5-year
       Strategy (strategy). In creating the next strategy, GLNPO should
       strive to: (1) obtain buy-in and commitment from all parties, (2)
       focus on goals, (3) include performance measures, and (4) provide
       accountability for implementation which will result in a meaningful
       strategy that helps bring together Great Lakes efforts and activities.
       From this, GLNPO can design a new strategy that will fulfill a new
       purpose for the Great Lakes and help carry efforts forward to the
       millennium.

       GLNPO developed the 1992 strategy to help coordinate activities
       with other Federal agencies and states working in the Great Lakes.
       Parties to the Great Lakes strategy included six Federal agencies,
       the eight Great Lakes states and one tribal representative.

                                      Table 7
                        Parties to the Great Lakes Strategy


       Federal Agencies               States           Tribal Representative
       EPA                            Illinois         Chippewa/Ottawa Fishery
       Army Corps of Engineers        Indiana                   Management
                                      Authority
       National Oceanographic and     Michigan
        Atmospheric Administration    Minnesota
       Coast Guard                    New York
       Department of Agriculture      Ohio
       Fish and Wildlife Service               Pennsylvania
                                      Wisconsin

       The purpose of the strategy was to shift away from doing business
       as independent agencies and to begin working as a team. The
       strategy was a voluntary effort to help focus Federal, state and
       tribal efforts on the Great Lakes. It established three goals: (1) to
       reduce toxic pollution, (2) to protect and restore habitat, and (3) to
       protect human health and the health of the ecosystem’s species.


                         22

                                                            Report 99P00212
                                          Improving EPA’s Great Lakes Program
             The strategy further identified specific activities and a framework
             for implementing the strategy.

             GLNPO management plans to issue a new Federal, state and tribal
             strategy for the Great Lakes, by April 2000. Officials are taking
             this opportunity to reconsider the strategy format, purpose, and
             time frame.



BUY-IN AND       We recommend that the Regional Administrator, Region 5
COMMITMENT       ensure the Great Lakes strategy has input from all (former
NEEDED           and new) parties during its development (4.1).

             Getting parties to buy-in to the strategy and participate in its
             development will help ensure they will support the strategy and try
             to implement it. According to several representatives of other
             Federal agencies, states, and tribes, EPA primarily wrote the
             strategy and presented it to the parties rather than working with the
             parties to put together a strategy that everyone could support. As a
             result, the original strategy was developed without the complete
             buy-in from all parties. At the time, working in partnership was a
             relatively new concept.

             Several groups that were not involved in development of the
             strategy deserve renewed or new attention:

             C        Federal Research Community

                      The Federal research community should be included in the
                      development of the strategy to improve coordination on
                      research planning. GLNPO, as program manager for the
                      Great Lakes, and the Federal Great Lakes research
                      community did not effectively coordinate regarding research
                      planning. The lack of coordination may have resulted in
                      needed research not being undertaken or research
                      completed that was not needed or used.




                                23

                                                                 Report 99P00212
                                                   Improving EPA’s Great Lakes Program
                    C        Regions 2, 3, and 5

                             Including Regions 2, 3, and 5 would also help give them a
                             sense of ownership of the strategy. Likewise, the Region 5
                             lake teams and media divisions could also benefit from
                             participation by developing a sense of ownership to the
                             strategy.

                    C        Great Lakes Tribes

                             GLNPO should make a special effort to ensure that all
                             Great Lakes tribes are aware of the opportunity to
                             participate in the development of the new strategy. The
                             tribal representative on the 1992 strategy spoke for only a
                             small number of tribes. After the 1992 strategy was
                             developed, several other tribes expressed concern at not
                             being included.

Agency Comments     GLNPO has begun implementing recommendation 4.1 to get input
                    from all parties. Preliminary discussions have been held with staff
                    from Regions 2, 3 and 5, Office of Research and Development,
                    states, tribes, and other Federal agencies. Many additional Great
                    Lakes stakeholders, including the Federal research community and
                    tribes will be brought into the process once the Agency enters the
                    development phase. The action plan and milestone dates for the
                    development of the strategy, which will address the
                    recommendations in this chapter, are included at the end of the
                    chapter.

Commitment Needed       We recommend that the Regional Administrator, Region 5
                        get agreement from all parties to implement the strategy
                        (4.2).

                    GLNPO officials need to identify a new way to ensure they have
                    obtained agreement to implement the strategy. For the 1992
                    strategy, managers at some Federal agencies indicated they were
                    committed to it, but did not follow through by dedicating resources
                    to achieving those commitments. Similarly, some state officials



                                       24

                                                                         Report 99P00212
                                                Improving EPA’s Great Lakes Program
                  could not sign the strategy because of their political climate, even
                  though they may have agreed with the strategy in principle.

Agency Comments   In responding to recommendation 4.2, the Regional Administrator
                  stated that GLNPO plans on implementing the recommendation
                  through closer communication with key management officials
                  during the consensus building phase of the strategy, as well as
                  devising an improved formal mechanism to gain support for the
                  strategy.



FOCUS ON GOALS     We recommend that the Regional Administrator, Region 5
                   focus the strategy on overall goals, as opposed to activities
                   (4.3).

                  The new strategy should serve as an umbrella document, bringing
                  together all Great Lakes efforts and initiatives in one place. The
                  1992 strategy emphasized detailed activities rather than
                  achievement of goals and performance measures. Parties to the
                  strategy had difficulty planning several years ahead which activities
                  would be useful to meeting the goals and priorities of the strategy.
                  Other processes exist that outline specific Great Lakes activities,
                  such as: LaMPs, RAPs, and the Binational Toxics Strategy.
                  Including detailed activities to the Great Lakes strategy can be seen
                  as another layer of reporting on the same activities.

Agency Comments   Region 5 agreed with recommendation 4.3. The focus of the
                  strategy will be on (1) protecting and restoring the chemical,
                  physical, and biological integrity of the Great Lakes basin
                  ecosystem, (2) the removal of beneficial use impairments, and (3)
                  the virtual elimination of persistent toxic substances. At the same
                  time, discussions with some stakeholders have encouraged greater
                  specificity in the strategy so that a wide variety of Agency
                  managers, as well as the public, can understand what is intended to
                  be accomplished. During the development of the strategy, GLNPO
                  will attempt to address both of these somewhat contradictory
                  objectives.




                                    25

                                                                       Report 99P00212
                                                Improving EPA’s Great Lakes Program



INCLUDE            We recommend that the Regional Administrator, Region 5
PERFORMANCE        include performance measures and report progress against
MEASURES           the measures (4.4).

                  The new strategy should include performance measures to report
                  on progress in restoring and maintaining the Great Lakes. The
                  1992 strategy did not include performance measures to evaluate
                  progress toward achieving the goals of the strategy. Performance
                  measures have become increasingly important to EPA as the
                  Agency moves toward adopting the Government Performance and
                  Results Act of 1994.

Agency Comments   Region 5 agreed with the recommendation 4.4. For Federal
                  agencies, the Government Performance and Results Act is one
                  potential source of measures. For state agencies, Environmental
                  Performance Partnership Agreements include performance
                  measures and reports. During the development of the strategy,
                  GLNPO will also explore other possibilities for measurement and
                  progress reports, including subsequent development of an
                  implementation plan, annual meetings or conference calls, and
                  agreed delineation of Great Lakes activities in work plans.



ENSURE             We recommend that the Regional Administrator, Region 5
IMPLEMENTATION     designate GLNPO as responsible for working with the
                   parties to the new strategy to ensure it is implemented (4.5).

                  GLNPO, in its role of coordinator of U.S. actions in the Great
                  Lakes, needs to ensure that the new strategy will be better
                  implemented than the 1992 strategy. GLNPO needs to ensure
                  parties to the strategy meet periodically to assess their collective
                  progress and that there is adequate coordination of activities.

                  The implementation of the 1992 strategy suffered from a lack of
                  accountability. No entity monitored the strategy to ensure that
                  commitments were met. As a result, some elements of the
                  framework of the strategy were not completely implemented.

                                    26

                                                                        Report 99P00212
                                                                   Improving EPA’s Great Lakes Program
                                  C       The U.S. Policy Committee was intended to facilitate
                                          discussion and coordination of activities among Federal and
                                          state agencies. According to the strategy, the committee
                                          was to help set overall priorities and coordinate the
                                          development of individual agency action plans to achieve
                                          the goals of the strategy. The U.S. Policy Committee met a
                                          couple of times, but has not met for several years.5

                                  C       When GLNPO officials prepared reports, they focused on
                                          summarizing activities without assessing progress toward
                                          achieving the goals. Without assessing progress, there was
                                          no determination of how well parties to the Great Lakes
                                          strategy were doing in achieving the strategy’s goals.

Agency Comment                    The Regional Administrator agreed with recommendation 4.5.
                                  GLNPO will be working over the next year to ensure the
                                  completion and implementation of the strategy.

CONCLUSION
                                  Without full implementation of and buy-in to the Great Lakes
                                  strategy Federal agencies and states were not able to achieve the
                                  intended benefits of the strategy. Each Federal agency, state, and
                                  the tribal organization that was party to the strategy was doing
                                  work in the Great Lakes, and without coordination these activities
                                  may not completely solve the problems in the Great Lakes.
                                  Working together, parties can learn from the experience of others
                                  and make the best use of limited resources.

AGENCY ACTIONS
                                  In responding to the draft report, the Regional Administrator
                                  proposed the following action plan for implementing the strategy:


                                                                    Table 8
                                                   Action Plan for the Great Lakes Strategy



        5
            With the acceleration of LaMPs and RAPs, the Agency is reconvening the U.S. Policy Committee, with
the initial meeting scheduled for November 1999.

                                                      27

                                                                                            Report 99P00212
                               Improving EPA’s Great Lakes Program

                      Action                          Date
Hold initial consultations on scope and          Completed
nature of strategy
Develop a draft plan for strategy process        Completed
Request participation from lead Agencies         August 1999
Hold initial conference call                     September 1999
Hold first kick-off meeting                      October 1999
Brief US Policy Committee                        November 1999
Draft strategy                                   December 1999/
                                                 January 2000
Public consultation                              February 2000
Final document issued                            April 2000




                 28

                                                  Report 99P00212
                                                 Improving EPA’s Great Lakes Program
                                                                               Exhibit 1
                                                                              Page 1 of 3
                              Background
Great Lakes Water
Quality Agreement   The overall purpose of the Great Lakes Water Quality Agreement
                    (Agreement) was to restore and maintain the chemical, physical,
                    and biological integrity of the Great Lakes. The general objective
                    of the Agreement was that the waters be free from:

                    C      substances that may form into sludge or will adversely affect
                           aquatic life or waterfowl;

                    C      floating materials such as debris, oil, and scum in amounts
                           that are unsightly;

                    C      materials that produce color, odor, taste, or other
                           conditions in such a degree as to interfere with beneficial
                           uses;

                    C      materials that are toxic or harmful to humans, animal or
                           aquatic life; and

                    C      nutrients that create growths in aquatic life as to interfere
                           with beneficial uses.

                    To restore and protect the Great Lakes, the Agreement identified
                    14 beneficial uses impairments that needed to be addressed, as
                    shown in table 9.




                                     29

                                                                         Report 99P00212
                                               Improving EPA’s Great Lakes Program
                                                                             Exhibit 1
                                                                            Page 2 of 3

                                             Table 9
                                   Beneficial Use Impairments
                        Restrictions on fish and wildlife consumption
                        Tainting of fish and wildlife flavor
                        Degradation of fish wildlife populations
                        Fish tumors or other deformities
                        Bird or animal deformities or reproduction problems
                        Degradation of benthos (organisms living at the bottom
                        of the lake)
                        Restrictions on dredging activities
                        Eutrophication or undesirable algae
                        Restrictions on drinking water consumption, or taste
                        and odor problems
                        Beach closings
                        Degradation of aesthetics
                        Added costs to agriculture or industry
                        Degradation of phytoplankton and zooplankton
                        populations
                        Loss of fish and wildlife habitat

Importance of   The U.S. has numerous Federal agencies and states with an interest
Coordination    in the Great Lakes. For example, several Federal agencies are
                responsible for habitat: EPA, Army Corps of Engineers, Fish and
                Wildlife Service, and Department of Agriculture. EPA and the
                Army Corps of Engineers both work with sediments. The EPA and
                the Coast Guard are both concerned with exotic species. Besides
                Federal agencies, there are eight states with various state agencies
                that have an interest in the Great Lakes. The overlapping
                responsibilities make coordination among Federal and state
                agencies very important.




                                  30

                                                                        Report 99P00212
                                            Improving EPA’s Great Lakes Program
                                                                         Exhibit 1
                                                                        Page 3 of 3

Role of GLNPO   The Act formally established the Great Lakes National Program
                Office (GLNPO) and identified its functions as:

                C      development and implementation of specific action plans to
                       carry out responsibilities of the Agreement,

                C      establishment of a Great Lakes system-wide surveillance
                       network to monitor water quality,

                C      serving as liaison with Canada,

                C      coordinating actions of the Agency directed at improving
                       the Great Lakes, and

                C      coordinating actions with other Federal agencies and states.




                                 31

                                                                  Report 99P00212
                                          Improving EPA’s Great Lakes Program
                                                                       Exhibit 2
                                                                      Page 1 of 4
                   Status of LaMPs
LAKE ERIE
            In Spring 1993, the U.S. and Canada began the initial phase of
            developing a Lake Erie LaMP. Ohio is serving as the lead state,
            with participation from Michigan, Pennsylvania, and New York. In
            1995, a concept paper was issued identifying the LaMP’s goal, to
            restore and protect the beneficial uses of Lake Erie, with a focus on
            the 14 beneficial use impairments. Ecosystem objectives will be
            used to guide LaMP efforts toward defined endpoints and serve as
            a basis for establishing commitments for reducing, eliminating, or
            preventing sources of beneficial use impairments.

            The LaMP is being produced as a series of technical reports
            describing the current and desired states of environmental
            conditions in Lake Erie. The reports on critical pollutants and
            beneficial use impairments, when completed, will represent the
            stage 1 LaMP for Lake Erie. The LaMP will also include
            ecosystem objectives, and is expected to be issued by June 2000.
            Table 10 identifies the report topics, current status, and the dates
            the reports are expected to be completed.




                              32

                                                                 Report 99P00212
                                                                     Improving EPA’s Great Lakes Program
                                                                                                   Exhibit 2
                                                                                                  Page 2 of 4

                                               Table 10
                                            Lake Erie LaMP

 Report Topic                      Status as of April 1999               Expected Final Report

 Ecosystem objectives and          Draft report was sent to the          June 1999
 indicators                        LaMP’s technical workgroup on
                                   December 8, 1998.

 Critical pollutants and other     Draft report is being prepared.       August 1999
 pollutants of concern

 Beneficial use impairments        Use impairment assessments had        Two additional assessments will be
                                   been issued for 6 of 14 beneficial    completed by April 1999. The
                                   uses.                                 subcommittee is working on a
                                                                         strategy for completing the six
                                                                         remaining use impairment
                                                                         assessments.



LAKE HURON
                                 In 1999, EPA, the state of Michigan, Canada and other Federal
                                 agencies began working on a Lake Huron Initiative, which has
                                 similar goals to a LaMP. Prior to this, the State of Michigan held a
                                 conference on June 10, 1998, in Saginaw, Michigan which
                                 addressed the current status of the Lake Huron watershed. The
                                 conference was attended by stakeholders from U.S. and Canadian
                                 government and non-government agencies. Representatives of the
                                 Michigan Departments of Natural Resources, Environmental
                                 Quality, and Agriculture voiced their opinions that a LaMP was not
                                 the preferred management option for the basin because of the
                                 difficulties that other organizations were having with LaMPs for the
                                 other Great Lakes. In January 1999, officials met again to establish
                                 the Lake Huron Initiative and set out a schedule for beginning work
                                 on Lake Huron.




                                                     33

                                                                                            Report 99P00212
                                             Improving EPA’s Great Lakes Program
                                                                          Exhibit 2
                                                                         Page 3 of 4

LAKE MICHIGAN
                The Great Lakes Critical Programs Act required EPA to publish in
                the Federal Register a draft LaMP for Lake Michigan by January 1,
                1992, and a final LaMP by January 1, 1994. EPA published the
                draft in August 1992. Based on public comments, EPA revised the
                draft and issued it for public comment again in May 1995. This
                draft focused primarily on toxic pollutants. However,
                governmental agencies and stakeholders recognized the draft was
                too limited, and that other stressors contribute to impairments in
                Lake Michigan. Comments confirmed that the LaMP should
                include an ecosystem approach to protecting Lake Michigan. EPA
                is working with other governmental agencies and stakeholders to
                revise the LaMP to address habitat, biodiverisity, and exotic species
                issues. The final draft stage 1 LaMP will be circulated for public
                comment in the fall of 1999, and submitted to the IJC in early 2000.

LAKE ONTARIO
                In 1996, Region 2, the New York State Department of
                Environmental Conservation, Environment Canada, and Ontario
                Ministry of the Environment officially started working on the Lake
                Ontario LaMP. The LaMP built on work the organizations had
                been doing since 1987 under the Lake Ontario Toxics Management
                Plan. The stage 1 LaMP was issued in 1998. While the focus of
                the stage 1 LaMP was on problem definition, it also included
                elements of stages 2 through 4, which address load reductions and
                remedial measures that need to be taken to achieve the load
                reductions.

                The LaMP included a work plan for completing a draft stage 2
                LaMP by the fall of 2000. Activities include:




                                 34

                                                                    Report 99P00212
                                             Improving EPA’s Great Lakes Program
                                                                          Exhibit 2
                                                                         Page 4 of 4

                C      evaluating the effectiveness of existing programs,
                C      enhancing mass balance models,
                C      facilitating cooperative lakewide monitoring,
                C      executing habitat protection and restoration activities,
                C      developing ecosystem objectives and indicators, and
                C      establishing basin teams and partnerships.

LAKE SUPERIOR
                The Lake Superior LaMP is being done in segments: critical
                pollutants, non-chemical stressors, and ecosystem principles and
                objectives. Much of the focus, and written documents to date, had
                been on critical pollutants and ecosystem principles. The stage 1
                LaMP for critical pollutants was issued in September 1995, and the
                stage 2 document is expected to be completed in April 1999. The
                Ecosystem Principles and Objectives, Indicators, and Targets for
                Lake Superior document was completed in September 1995 and
                has been updated periodically. EPA also expects to complete a
                document combining the stage 1 and 2 LaMPs for non-chemical
                stressors.

                The Lake Superior LaMP covers more than the Agreement
                anticipated because the IJC also recommended that Lake Superior
                be a demonstration zone for zero discharge. The zero discharge
                program (Broader Program) and emphasis on a partnership
                approach to achieving goals, make up what is known as the Lake
                Superior Binational Program. The LaMP also incorporates the
                “Broader Program,” that focuses on management and coordination
                needed to ensure beneficial uses are protected and restored. The
                LaMP serves as an update for the Binational Program.




                                 35

                                                                    Report 99P00212
                                                                   Improving EPA’s Great Lakes Program
                                                                                                   Exhibit 3
                                                                                                  Page 1 of 2
                                           Status of RAPs

                                               Table 11
                                Status of 31 U.S. and Binational RAPs
                                         Report to IJC        Latest  No. of Use Impact from   Toxic
       Areas-of-Concern            State
                                       Stage 1 Stage 2        Update Impairments   SF Site   Sediments
Ashtabula River                   OH    1991                                 6            Y              Y
Black River                       OH    1994                   1997         10            Y              Y
Buffalo River                     NY    1989     1989          1999          5            N              Y
Clinton River                      MI   1988     1995          1998          8            Y              Y
Cuyahoga River                    OH    1992                   1996         10            N              Y
Deer Lake 6                        MI   1987                                              N              Y
Eighteenmile Creek                NY    1997     1997                        3            N              Y
Fox River                          WI   1988                                10            N              Y
Grand Calumet River                IN   1991                                14            Y              Y
Kalamazoo River                    MI            1998                        7            Y              Y
Lower Menominee River            MI/WI  1991     1996          1996          6            Y              Y
Manistique River                   MI   1987     1997          1997          5            Y              Y
Maumee River                     IN/OH  1992                   1997         10            N              Y
Milwaukee Estuary                  WI   1994                                10            N              Y
Muskegon Lake                      MI   1987     1994          1994         10            Y              Y
Oswego                            NY    1990     1991          1999          4            Y              Y
Presque Isle Bay                   PA   1993                   1995          2            N              Y
River Raisin 6                     MI   1987                                              Y              Y
Rochester Embayment               NY    1993     1997                       12            Y              Y
Rouge River                        MI   1989     1994          1998         13            Y              Y
Saginaw River/Bay                  WI   1988                                12            Y              Y
Sheboygan River                    WI   1989                   1995          8            Y              Y
St. Louis Bay / River            MN/WI 1992                    1995          9            Y              Y
Torch Lake 6                       MI   1987                                              Y              Y
Waukegan Harbor                    IL   1993     1995                        5            Y              Y
White Lake                         MI   1987     1995          1995         10            Y              Y




        6
         The RAPs will be updated during 1999, and will include an identification of the number of use
impairments.

                                                      36

                                                                                              Report 99P00212
                                                            Improving EPA’s Great Lakes Program
                                                                                       Exhibit 3
                                                                                      Page 2 of 2

                                        Report to IJC   Latest  No. of Use Impact from   Toxic
      Areas-of-Concern        State   Stage 1 Stage 2   Update Impairments   SF Site   Sediments
Binational Areas of Concern
St. Marys River               MI       1992                         10         Y          Y
St. Clair River               MI       1991    1995     1997         9         N          Y
Detroit River                 MI       1991    1996     1996         9         Y          Y
Niagra River, NY              NY       1994    1994                  5         Y          Y
St. Lawrence River, Massena   NY       1990    1991     1996         3         Y          Y
Total                                                                          22         31




                                               37

                                                                                 Report 99P00212
                                            Improving EPA’s Great Lakes Program
                                                                        Exhibit 4
                                                                       Page 1 of 2


       Scope, Methodology, and Prior Audit Coverage
SCOPE AND
METHODOLOGY     The evaluation was conducted from July 10, 1998, to May 17,
                1999. The fieldwork was performed primarily in Region 5, with
                limited work performed in Regions 2 and 3. Except as noted
                below, we performed our work in accordance with Government
                Audit Standards, 1994 Revision, issued by the Comptroller General
                of the U. S. We deviated from standards only in the reporting of
                results. The standards require that findings be presented
                persuasively, and include sufficient, competent, and relevant
                information in order to provide convincing evidence of the need for
                corrective action. Since the evaluation was performed at Region 5
                management’s request, with an acknowledgment that improvements
                were needed, we limited the amount of detail in the report relating
                to the conditions. The focus of the report was on the cause of the
                problems and the recommended corrective actions.

                As part of the work, we evaluated the internal control assessment
                of the Great Lakes National Program Office for FY 1996 and 1997.
                We also assessed the Agency’s compliance with laws and
                regulations that were specific to the Great Lakes.

                To gain an understanding of the LaMPs and RAPs, we discussed
                the processes with management and staff at EPA, other Federal
                agencies, states, and non-governmental organizations who were
                involved with the processes. Due to the large number of
                organizations involved with RAPs, we also sent surveys to EPA,
                state and local officials requesting input on what can be done to
                improve the RAP process. We also evaluated completed LaMP and
                RAP documents and reports that have been written about the
                processes.




                                 38

                                                                  Report 99P00212
                                          Improving EPA’s Great Lakes Program
                                                                       Exhibit 4
                                                                      Page 2 of 2

              In order to make recommendations for improving the next Great
              Lakes strategy, we evaluated the previous strategy and EPA’s
              implementation of the strategy. We discussed with staff at EPA,
              other Federal agencies, and states what can be done to improve the
              next strategy. We also evaluated other planning processes to
              determine the extent to which they can be used in coordinating
              Federal and state activities in the Great Lakes.

              As part of the second objective on effective national agreements,
              we also evaluated the Agency’s implementation of the Binational
              Toxics Strategy. However, our limited review did not identify any
              potential areas of concern that warranted expanding the evaluation
              or recommending improvements.

              The Regional Administrator, Region 5, responded to the draft
              report on July 27, 1999. Region 5 staff provided clarification of
              some sections of the response through telephone discussions and
              electronic mail. The response was incorporated into the text of the
              report and attached as appendix 1.

PRIOR AUDIT
COVERAGE      There was no prior audit coverage that related to our objectives.




                               39

                                                                 Report 99P00212
                                                           Improving EPA’s Great Lakes Program
                                                                                        Appendix 1
                                                                                        Page 1 of 15

                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                   GREAT LAKES NATIONAL PROGRAM OFFICE/REGION 5
                            77 WEST JACKSON BOULEVARD
                                CHICAGO, IL 60604-3590

                                       JUL 27 1999

MEMORANDUM

SUBJECT:         Response to IG Draft Report No. 98-000360
                 Improving EPA’s Great Lakes Program

FROM:            Francis X. Lyons
                 Regional Administrator, Region 5
                 Great Lakes National Program Manager

TO:              Anthony C. Carrollo
                 Divisional Inspector General for Audits
                 Northern Division

         Thank you for the opportunity to respond to the Draft Report on Improving EPA’s Great
Lakes Program. Pursuant to your request, the attached response includes comments on the
findings and recommendations and action plans for implementing the recommendations. An
electronic version of the response will be sent to Janet Kasper. Input to this response was
provided from GLNPO; the Region 5 Water Division; Regional Team Managers for Lakes
Michigan and Erie; the Regional Team Managers for Northwest Indiana, Southeast Michigan,
and Northeast Ohio, and Sediments; and the Office of Research and Development. Others,
including Regions 2 and 3, were also provided an opportunity to comment.

       If you have any questions about this response, please contact Gary Gulezian at 312-886-
4040. The staff contact for this report is Michael Russ, who can be reached at 312-886-4013.




                                                   Francis X. Lyons

cc:     Jo Lynn Traub
        Gary Gulezian
        Steve Bradbury
        Howard Levin

                 Note: The original response was signed by Francis X. Lyons.


                                              40

                                                                                    Report 99P00212
                                                           Improving EPA’s Great Lakes Program
                                                                                         Appendix 1
                                                                                         Page 2 of 15

                   RESPONSE TO RECOMMENDATIONS
                    IG DRAFT REPORT NO. 98-000360
                IMPROVING THE GREAT LAKES PROGRAM

Recommendation 2.1. Issue LaMP Documents. We recommend that by September 2000
the Regional Administrator, Region 5, work with other appropriate Federal, state, and
Canadian governmental organizations to issue LaMP documents for Lakes Michigan and
Erie describing what is known about the extent of the problem and load reductions and
remedial measures that are needed.

We concur with the recommendation and have begun to implement it.

The US and Canada have been successful in developing and issuing the critical pollutant
component of the Lake Superior Stage 2 Lakewide Management Plan (LaMP). The critical
pollutant component of the Stage 3 LaMP for Lake Superior will be completed by April 2000. In
formulating our strategy for accelerating the Lake Michigan and Lake Erie LaMPs, we evaluated
what has contributed to the success of the Lake Superior effort. Two factors are noteworthy.
First, the Lake Superior Binational Program has had active stakeholder involvement; the States
and other partners have written major portions of the LaMP and have played a leadership role
throughout the process. The Public Forum developed the load reduction schedules for the Lake.
Second, the EPA Lake Superior Team had dedicated technical and administrative support
resources, including a full time LaMP author position, funded by the Water Division.

An important part of our strategy for accelerating the Lake Michigan and Lake Erie LaMPs will
therefore be to obtain State commitment to write documents and to expedite the review and
approval process. We will utilize the development of the next Great Lakes Strategy, the
Continuous Planning Process under the Clean Water Act, and negotiation of State grants for
Great Lakes CEM (Coastal Environmental Management ) funds to achieve this goal. We will
also better utilize State Water Director meetings as a means of integrating LaMP and Remedial
Action Plan (RAP) work with base program requirements under the Clean Water Action Plan.

We will also allocate Regional resources to meet the accelerated schedules. Both GLNPO and
Water traditionally provide substantial support to the LaMPs.
- The GLNPO has focused on basin-wide issues, particularly in science support for the
   open lakes and in working with Canada. GLNPO also has provided specific support to
   the LaMPs and RAPs, including: the Lake Michigan Mass Balance Study, assisting with
   the critical pollutant portion of the Lake Michigan LaMP; funding a habitat coordinator in
   Minnesota (4 years), Michigan (2 years) and Wisconsin (2 years) to assist with the habitat
   portions of the Lake Superior LaMP; writing the original background paper on habitat for
   the Lake Erie LaMP; identification (with Superfund staff) of important biodiversity
   investment areas to be incorporated into the Lake Michigan LaMP; providing
                                               1



                                              41

                                                                                    Report 99P00212
                                                              Improving EPA’s Great Lakes Program
                                                                                             Appendix 1
                                                                                             Page 3 of 15
    atmospheric deposition information (already incorporated into the Lake Ontario LaMP);
    assisting RAP implementation via sediment assessment (sites in 24 AOCs) and
    remediation (sites in 3 AOCs); and development of an ecosystem indicator framework
    which can be used by the LaMPs. Most of this work will continue. To further LaMP
    acceleration, GLNPO proposes additional assistance with indicator development, with
    connections on Binational Toxics Strategy (BNS) long-range transfer work, and with the
    ecosystem component of the LaMPs.
-   Prior to the 1995 Region 5 reorganization, the Water Division had the lead for developing
    LaMPs and RAPs per an agreement between the GLNPO and Water Division Directors.
    In Fiscal Year (FY) 1999, the Region 5 Water Division received 7.3 FTE and about $3.49
    million from the Office of Water to support its efforts for Lakes Superior, Michigan, and
    Erie and the 24 Areas of Concern (AOCs) in Region 5. However, the resource needs far
    exceed the FTE allocated. In addition to FTE for the Regional Team Manager positions
    and above mentioned dedicated Lake Superior Team members, the Division has posted
    LaMP author positions for Lake Michigan and Lake Erie; has funded a full time Detroit
    RAP manager located in Michigan and a full time outreach position for Lake Superior,
    located in Duluth; has provided two positions for grants management; three positions for
    community outreach; three FTE for RAPs; and two FTE for GIS work and monitoring
    support. The Water Division also has generally awarded approximately half of its Great
    Lakes Coastal Environmental Management funding for State FTE in support of RAPs and
    LaMPs. For FY98-99 the Division redirected funds from base program activities,
    especially NPDES, to support LaMPs and RAPs. However, resource accounting under
    GPRA, and concerns by the Assistant Administrator for Office of Water on base program
    priorities, will not allow the Water Division to continue this level of reprogramming.
It is important to note that the Great Lakes and Regional Teams are multi-media, cross-cutting
Regional priorities. Dedicated resources, particularly Team members who spend a significant
amount of time and effort on the LaMPs, have helped progress for the Lakes where the LaMPs
are most advanced. To accelerate LaMP progress, all applicable Divisions and Offices, not just
the Great Lakes National Program Office (GLNPO) and the Water Division, must stand ready to
support the Regional Teams. This support does not mean moving resources to the Lake Teams
or asking for additional taps, but will require a short-term focusing of existing program staff with
needed expertise or experience which aligns with both the program and the LaMP need. For
example, staff with expertise in sources and loadings or habitat will be needed to assist the
Regional Teams with the accelerated schedules. A commitment by the Resources Management
Division to the timely processing of the LaMP author positions will be needed.
A number of discussions and activities have taken place that will result in issuance of LaMP
documents describing what is known about the extent of the problem and load reductions and
remedial measures that are needed:
– A Region 5 LaMP Workgroup was established to look at this and other issues in response
    to the direction of Region 5 and State Water Directors at their February 1999 meeting.

                                                 2


                                                42

                                                                                         Report 99P00212
                                                           Improving EPA’s Great Lakes Program
                                                                                          Appendix 1
                                                                                          Page 4 of 15

–   In the April 1999 Region 5/State Environmental Directors meeting, a challenge was
    issued for the LaMP technical work groups and management committees to complete
    Stages 1-3 of the LaMPs by April 21, 2000 (Earth Day).
–   Workgroups responsible for producing the LaMPs have responded to the challenge. The
    LaMPs will be accelerated by 1 year (Lake Superior) to 2 years (Lakes Erie and
    Michigan). Approval of this acceleration is still required by the LaMP Management
    Committees and, for the Binational LaMPs, Canada.
–   LaMP acceleration was discussed during the June 1999 Region 5 Lake Summit. Region
    5's Senior Leadership generally agreed to acceleration of the planning stage of the LaMPs
    and the development of schedules for those parts of the LaMPs that could not be
    completed by April 2000.
–   There was general agreement to the proposed schedules during a July 7 call between the
    National Program Manager and representatives of the States.
–   Binational discussions regarding LaMPs will occur at the July Binational Executive
    Committee meeting. We will work closely with our Canadian counterparts to secure their
    agreement to accelerated LaMP schedules.

The proposed schedules for Lakes Michigan and Erie are:

    Lake Michigan
    April 2000 Deliverables
    !       Lake Michigan LaMP Stages 1-3 merger that includes:
    !       Vision, goals and sub-goals of the LaMP
    !       Status of the ecosystem described in detail, including impairments and human health
            implications
    !       Environmental indicators based on the State of the Lakes Conference template
    !       Chemical, physical and biological causes and sources of impairments and stressors as
            we know them to date (loadings)
    !       An initial set of remedial action to achieve initial percentage reduction targets in
            order to meet LaMP goals

    After April 2000
    !      Finalize TMDL/LaMP Framework (June 2000)
    !      State-by-State and Sector meetings to incorporate LMMB model results into LaMP
           (Summer 2000)
    !      Finalize Lake Michigan Coordinated Monitoring and Reporting Plan (Fall 2000,
           following SOLEC session)




                                               3



                                              43

                                                                                     Report 99P00212
                                                            Improving EPA’s Great Lakes Program
                                                                                          Appendix 1
                                                                                          Page 5 of 15

Lake Erie
April 2000 Deliverables
! Recommendations for new actions on PCBs and mercury
! Recommendations for habitat projects
! Use impairment conclusions:
    "      Four additional assessments completed
    "      Five presented in draft form
! Draft ecosystem objectives
! Status report on pollutant source identification work for 30 pollutants of concern
After April 2000
Stage 1
! Draft Stage 1 Report Completed (July 2000)
! Final Stage 1 Report Completed (September 2000)
Stage 2
! Draft combined Stage 2/3 Report completed (April 2001)
! Final combined Stage 2/3 Report completed (September 2001)
Stage 3
! Draft supplemental Stage 3 Report completed (September 2001)
! Final supplemental Stage 3 Report completed (December 2001)

Action Plan/Milestones. Milestones for each Lake will differ; however, the milestones could be
grouped as follows:
- Establishment of Detailed, Accelerated LaMP Schedules through
    LaMP Management Committees                                                   Summer 1999
- U.S. Policy Committee Meeting to Ensure Progress on Meeting
    Schedule Deadlines                                                         November 1999
- U.S. Policy Committee Meeting to Ensure Progress on Meeting
    Schedule Deadlines                                                            Spring 2000
- LaMP documents (critical pollutant portions, but see schedules above)            April 2000
- Finalized/Completed LaMP documents                                    December 2000 - 2001

Recommendation 2.2. We recommend that by September 2000 the Regional
Administrator, Region 5, work with other appropriate Federal, state and Canadian
government organizations to decide what action to take on the Lake Huron LaMP, and
when activities will begin.

We concur with the recommendation and have started a Lake Huron Initiative under a
cooperative agreement with the Great Lakes Office of the Michigan Department of
Environmental Quality (MDEQ). Like the existing LaMPs, the purpose of the Lake Huron effort
(derived from the Great Lakes Water Quality Agreement) is to restore and maintain the chemical,
physical, and biological integrity of the the Lake Huron Ecosystem. The effort will focus on

                                               4


                                              44

                                                                                       Report 99P00212
                                                              Improving EPA’s Great Lakes Program
                                                                                              Appendix 1
                                                                                              Page 6 of 15

identification of data needs, identification of actions (on-going and future), funding resources,
and stakeholder and public involvement.
Much progress has already been made toward development of a management plan for the Lake
Huron watershed. Following up on recommendations from the 1996 State of the Lakes
Ecosystem Conference, GLNPO supported, via an assistance agreement, MDEQ’s Great Lakes
Office in putting together a June 1998 Lake Huron Conference and a January 1999 Lake Huron
workshop. The Lake Huron Conference brought together bi-national governmental
representatives and the public to initiate efforts to identify priority issues and future efforts
needed to ensure a sustainable Lake Huron Watershed. Participants attended the Lake Huron
Workshop from both Michigan and Ontario, including representatives of Federal, State, and
Provincial governments and the public. Workshop participants developed an action agenda for
addressing Lake Huron and to help identify priority issues and necessary future efforts. In May
1999, MDEQ developed a draft “Lake Huron Initiative” report.
Pending Binational approval, by April 2000, the Lake Huron Initiative report will assess
beneficial use impairments and critical pollutants, address habitat/biodiversity issues, identify
potential cooperative monitoring proposals, and include any products (such as fish-related
environmental objectives) developed in conjunction with the Lake Huron Technical Committee
of the Great Lakes Fishery Commission. An action plan will also be prepared to identify key
actions and priorities for Lake Huron regarding beneficial use impairments/critical pollutants and
habitat/biodiversity. Plans for after April 2000 include implementing key actions identified in
the April 2000 action plan, strengthening binational cooperation and participation, additional
work strengthening elements of critical pollutants and ecosystem management activities, and a
Lake Huron Symposium in 2001.
The Lake Huron Initiative is not currently a Lakewide Management Plan, although it has many
of the elements and attributes of a LaMP. Management has been discussing the LaMP process
with the States, and the State of Michigan would like to use the Lake Huron Initiative to serve as
a reinvention approach to lakewide management planning. Lake Huron will be an ideal place to
initiate this because only Michigan, Environment Canada, and the Province of Ontario would be
involved in such an effort, so the complexities of a multi- State perspective and participation
should be able to be substantially streamlined. Therefore, we believe the approach to Lake
Huron can be streamlined and completed in a substantially faster time frame than some of the
other lakewide efforts. The Lake Huron initiative will serve as an excellent base for future
efforts and will be carefully managed so in the future, it can serve as the LaMP. It is worthwhile
to note that the Lake Ontario LaMP began as a Toxic Management Plan and was successfully
reformulated into a LaMP.
Discussions with our Canadian counterparts on Lake Huron have not produced an agreement to
begin a LaMP. Environment Canada has informed us that they will not be able to take up the
issue of a LaMP for Lake Huron until the year 2000, as they do not have additional resources to
apply to this effort. To meet the intent of the Great Lakes Water Quality Agreement (GLWQA)

                                                 5


                                                45

                                                                                         Report 99P00212
                                                             Improving EPA’s Great Lakes Program
                                                                                            Appendix 1
                                                                                            Page 7 of 15

and to be lakewide in nature, a LaMP must be binational in its approach.
These are issues that will continue to be addressed as the Lake Huron effort progresses. In the
year 2000 time frame, the Agency will initiate discussions with both Environment Canada, as
well as MDEQ regarding the progress and future of the initiative. Currently, a management
representative from the GLNPO sits on the Lake Huron Executive Steering Committee and is
actively participating in this process. A GLNPO staff member is currently the project officer for
the Cooperative Agreement and is also participating and providing technical support and
coordination to the initiative.
Action Plan/Milestones.
- Draft Lake Huron Initiative                                                          June 1999
- Initiative Meeting in Rogers City, MI                                                June 1999
- Initiative Meeting/Public Meeting                                        January/February 2000
- Initiative Document/Action Plan Final                                               April 2000
- Lake Huron Symposium                                                                early 2001

Recommendation 2.3. We recommend that the Regional Administrator, Region 5 work
with Canada, other Federal agencies, and states to identify, and implement, ways to make
the LaMP process more efficient.

We agree with this recommendation and have begun to implement it.
The Lakewide Management Committees for Lakes Michigan, Erie and Superior have met and
discussed the proposed acceleration and are excited about this opportunity. Deadlines and
specific schedules often energize groups, and the enthusiasm of each group of partners is
apparent. The LaMP Technical Workgroups are taking ownership of schedules and are prepared
to work together to meet the challenge. As discussed in the response to Recommendations 2.1
and 2.2, LaMP development is now being made more efficient through streamlining and
acceleration. A workgroup has developed a number of key recommendations that will be
implemented. Through the steps being taken to accelerate the LaMPs, by April 2000,
documentation should be available for each of the Great Lakes which describes, at least for
critical pollutants, what is known about the extent of the problem and load reductions and
remedial measures that are needed. These documents, even if they are not technically
“completed” LaMPs will sufficiently lay out the information available to all parties at the time
they are issued. Where there is incomplete information, a plan will be included for obtaining the
information. This process will be used for the existing LaMPs. The process will be focused on
implementation and gaining the on-the-ground improvements needed to protect and restore the
Lake ecosystem.
EPA will use the process for development of the Great Lakes Strategy to identify, and implement
ways to make the LaMP process more efficient. Improving LaMP efficiency will also be a part

                                                6



                                               46

                                                                                       Report 99P00212
                                                             Improving EPA’s Great Lakes Program
                                                                                            Appendix 1
                                                                                            Page 8 of 15

of Great Lakes Strategy implementation.
The Binational Executive Committee will also discuss how to improve the LaMP process at their
July meeting. This will help develop support from our Canadian counterparts.

Action Plan/Milestones. See Recommendations 2.1 and 2.2.

Recommendation 2.4. We recommend that the Regional Administrator, Region 5 establish
a RAP coordinator in Region 5.

Establishing a RAP coordinator in Region 5 is not the answer to the issues raised in the Inspector
General’s Report. We do appreciate the need to focus more attention on the RAP process and
bring it to closure. We do not see “coordination” as being the real issue. Historically, the States
have had the lead for RAPs with Region 5 playing a minor role. For several years the Water
Division had a full time RAP coordinator, but the position was eliminated because it was not
needed. Issues will need to be addressed State-by-State for each RAP. If there is a role for an
EPA RAP liaison to play, we would seek to have a RAP liaison appointed. There may not be a
need for an EPA RAP liaison for each RAP.
We believe that the best strategy for
accelerating the RAPs is to issue a               Figure 2.5.
“challenge” to the States such as they issued     The 22 Region 5 RAP liaisons come from:
to us for the LaMPs. Roughly half of the            Office      Stage 1    Stage 2    Total
RAPs are in the implementation phase (see
Figure 2.5); for the remaining RAPs, we need        ARD                    1          1
to agree on roles, establish aggressive             GLNPO                  2          2
schedules and milestones, and allocate funds
accordingly. EPA’s role will differ from            OSEA        1                     1
RAP to RAP. For example, during FY98
                                                    RMD         3                     3
Region 5 led efforts to develop a Four Party
Letter of Commitment for the three                  Superfund   4          3          7
binational RAPs: the Detroit, St. Mary and
St. Clair Rivers. A full time position was          Water       4          3          7
established by the Water Division for the
Detroit RAP and is housed in the Detroit
area. In other instances, the RAP has an
active Public Advisory Committee, full State involvement, and EPA’s participation is not needed.
Where an active EPA role is required, the Water Division and GLNPO cannot provide all of the
resource support. All Divisions, Offices, and Regional Teams will be asked to provide some
expertise and leadership where the RAP objectives align with program objectives. This is
already occurring in many instances, such as the Superfund program’s involvement in AOCs.

                                                 7



                                                47

                                                                                        Report 99P00212
                                                              Improving EPA’s Great Lakes Program
                                                                                             Appendix 1
                                                                                             Page 9 of 15

The extramural dollars received by the Region 5 Water Division for LaMP and RAP support
have already been significantly reduced, with a cut of close to $1 million in FY99 an additional
cut of close to $1 million expected for FY2000. Further, the Region 5 RAP/LaMP funding of
$3.6 million contained in the President’s budget for FY 2000 may be cut even more during
budget negotiations. The first priority for use of these funds will be completion of the LaMPs.
The remaining limited funds should be strategically allocated for those RAPs that need the most
work and/or EPA support. In general, we will not continue funding State RAP positions where a
Stage 2 RAP has been developed. The CEM grant process will be the vehicle to make these
decisions. However, additional support, particularly for implementation, is needed from other
places, including Water, GLNPO (even though the President’s budget identifies a cut of $1.2
million to its budget), Superfund, and other programs.
We believe that the best forum for RAP coordination is the Regional Team for each Lake. RAPs
are viewed in the GLWQA as “point sources” to the Lakes and we need to ensure that actions to
address contaminated sediments in particular are consistent with Stage 3 LaMPs. The Region 5
Lake Team Managers will be given a renewed charge to serve as the umbrella for the RAPs in
their Lake, and to coordinate the planning and funding process. Toward this end, the Lake Team
Managers and the Regional Team Managers for the respective geographic teams (NW Indiana,
SE Michigan and NE Ohio) will coordinate more closely together.
Also, and in keeping with Section 118 of the Clean Water Act, the Region 5 Water Division, in
consultation with GLNPO and other program offices involved in RAP actions, will, as
workplans/Environmental Performance Partnership Agreements are revised or renewed,
negotiate specific commitments with States for water quality management plan updates, and will
review the updates to ensure they define appropriate RAP actions. This is in keeping with
Section 118 which assigns primary responsibility for completing the U.S. RAPs to the States and
anticipates that RAPs will be included in the States' water quality management plans.
Finally, we note the resource constraints, issues of roles and responsibilities, and other problems
that are inherent in addressing RAP issues may require additional work before they are resolved.
Some of these issues will be addressed during the process of developing a new Great Lakes
Strategy.

Action Plan/Milestones.
- Initiate RAP “Challenge” with States/stakeholders                                  July 1999
- Discussions with States on lead roles/accelerated schedules and
    CEM grant dollars                                                        July/August 1999
- Renewed charge to RTMs                                                          August 1999
- RAP “challenge” discussion at US Policy Committee Meeting
    and agreement on how to implement                                          November 1999
- Progress report at BEC Meeting                                               December 1999
(See also the Recommendation 4.1 response with respect to the Great Lakes Strategy schedule.)

                                                 8



                                                48

                                                                                        Report 99P00212
                                                             Improving EPA’s Great Lakes Program
                                                                                            Appendix 1
                                                                                           Page 10 of 15

Recommendation 2.5. We recommend that the Regional Administrator, Region 5 clarify
and communicate the priority and responsibility of LaMPs and RAPs in Region 5.

We agree with this recommendation and will explore means to implement it. Special Great
Lakes activities outside of typical media priorities often receive less attention within Region 5
programs than do headquarters-driven requirements. Accelerated progress in Region 5 on
LaMPs and RAPS will require special attention by the Regional Administrator in his role as
Great Lakes National Program Manager. The Region 5 Deputy Regional Administrator also has
a crucial role in establishing the roles for Regional programs in accomplishing the priorities for
LaMPs and RAPS.

One vehicle for heightening participation of Region 5 programs will be their participation in the
development and implementation of the next Great Lakes Strategy. While not signatories to the
Strategy itself, EPA programs will be vital participants in its development. Objectives for the
programs can be articulated in supplemental annual plans, or agreements, which will implement
the Strategy.

There are also a number of important points (see Action Plan/Milestones below) in the Region 5
Planning Process where LaMPs and RAPS can be highlighted to management and staff. The
GLNPO Director and Water Division Director, as Goal Leads, will ensure that LaMPs and RAPS
are emphasized at these times to all of the Region 5 Senior Leadership Team.

Actions speak louder than words, and one of the best ways to send a message that the LaMPs and
RAPs are a high Regional priority is to align systems to support them. Planning, budgeting,
accountability and awards systems should all support completion of LaMPs and RAPs.

Action Plan/Milestones.
- Lake Summit                                                                    June 25 1999
- Summary of Agreements from Lake Summit                                             July 1999
- Region 5 Lake Team Resource Requests conveyed                                      July 1999
- Resource Decisions by USEPA Region 5                                         September 1999
- Regional Results Plan                                                          October 1999
- Mid-year Goal Reporting                                                         March 2000
- Lake Summit                                                                       April 2000
(See also the Recommendation 4.1 response with respect to the Great Lakes Strategy schedule.)




                                                9



                                                49

                                                                                       Report 99P00212
                                                             Improving EPA’s Great Lakes Program
                                                                                            Appendix 1
                                                                                           Page 11 of 15

Recommendation 2.6. We recommend that the Regional Administrator, Region 5 define
and communicate the role of GLNPO in LaMPs and RAPS.

We agree with this recommendation and will explore means to implement it. It is important that
the role of all EPA programs in LaMPs and RAPS be better defined and communicated.
The LaMPs and RAPs are multi-media efforts and will require full Regional support to succeed.
This is especially true for the implementation phase, which will require that base programs be
focused on Stage III activities. As described earlier in the response, the lead for LaMPs and
RAPs historically rested with the Water Division as a result of an agreement between the
GLNPO and WD Directors. The GLNPO focused on basin-wide issues, particularly in science
support for the open lakes and in working with Canada. The Water Division Co-Chaired the
LaMP Management Committees with no GLNPO participation.
The FY95 Regional reorganization recognized the multi-media nature of the Lakes and shifted
the lead for LaMPs/RAPs to Regional Teams. Early in this process each of the Lakes had an
individual SLT sponsor. Later, the Directors of GLNPO and Water Division recognized the
benefits of “joint” sponsorship for all three Lakes. Communication and collaboration between
Water Division and GLNPO has significantly improved, as well as base program support for
LaMPs and RAPs. The Directors meet frequently with the Lake RTMs, and are fully committed
to the accelerated schedules for the LaMPs. The two Directors now Co-Chair the Lake Michigan
Management Committee. A GLNPO Manager attends the Lake Superior and Lake Erie
Management Committees. Funding processes are being coordinated to ensure the best use of
both CEM ands GLNPO dollars.
RAP and LaMP roles and responsibilities will also be addressed during the development and
implementation of the Great Lakes Strategy. Regional programs and RAP and LaMP teams will
be key participants in its formulation and implementation.
Action Plan/Milestones
See milestones for development of Great Lakes Strategy (Recommendation 4.1).


Recommendation 3.1. We recommend that the Regional Administrator, Region 5 prepare
an agreement(s) that outlines the roles and responsibilities of GLNPO, ORD, Regions 2, 3,
and 5 in the Great Lakes.

We agree with this recommendation and will implement it as part of the new Great Lakes
Strategy being developed under the leadership of the Great Lakes National Program Manager.
Roles and responsibilities of GLNPO, ORD, and Regions 2, 3, and 5 will be updated and
articulated as a part of the Strategic planning process. In that process, care will be taken to
obtain agreement by those organizations to the descriptions of those roles and responsibilities.

                                                10



                                                50

                                                                                        Report 99P00212
                                                              Improving EPA’s Great Lakes Program
                                                                                             Appendix 1
                                                                                            Page 12 of 15

Even in the absence of a formal agreement among GLNPO, Region 5, and ORD, there has been
significant research coordination among these organizations. Examples include:
- The integration of Great Lakes and Great Waters research activities responsive to Section
    112 (m) of the Clean Air Act Amendments of 1990 pertaining to multimedia loadings. In
    response, the Administrator’s Office, Region 5, GLNPO, and the Offices of Air, Water
    and Research and Development developed and implemented research to enable research-
    grade measurements of persistent, bioaccumulative toxic (PBT) deposition from the
    atmosphere to the Great Lakes; long-term research investigating the potential for local
    and distant sources to contribute atmospheric loadings of PBTs to Lake Michigan and
    Chesapeake Bay; long-term mercury research on measurement methods and species
    availability; and a procedure for integrating scientific knowledge into the Great Waters
    Report to Congress.
- ORD participates on the steering committee for the State of the Lakes Ecosystem
    Conferences.
- GLNPO, Regional, and ORD coordination for the Lake Michigan Mass Balance Study,
    the first-ever intensive monitoring of Lake Michigan air, water, sediments, and biota.
- GLNPO has consistently participated in ORD’s Regional Science Council, providing
    annual recommendations to ORD about high priority research needs.
- As a result of a transfer from the Region 5 Administrator’s Office, GLNPO has,
    beginning in 1999, begun to participate in the Research Coordination Teams which
    provide annual recommendations to ORD about high priority research needs. This
    participation is bearing fruit this year with the inclusion of Great Lakes indicators in the
    current draft STAR Request for Applications for coastal indicators. In recognition of
    previous work done with ORD, the GLNPO participant in this effort is being given a
    bronze award by ORD in the Agency’s August 1999 award ceremony.
- Since 1996, ORD, GLNPO, and Region 2 have been cooperating and coordinating in
    assessing changes in the biological community of Lake Ontario.
- From 1992-1994, ORD and GLNPO cooperated and coordinated in implementing Great
    Lakes EMAP monitoring.
GLNPO and ORD propose to encourage development of a broader GLNPO/ORD program, using
as a prototype the Lake Michigan Mass Balance collaboration for planning and research among
the National Health and Environmental Effects Research Laboratory, the National Exposure
Research Laboratory and GLNPO. It is important to note, however, that increased research
coordination will require increased staff resources. Participation in activities, such as strategic
planning, Congressional reporting, or the formulation of risk management options requires an
organizational structure providing for senior scientists to accomplish these objectives. Neither
GLNPO, nor ORD, nor the Regions are currently slated for staffing increases which would allow
for increased coordination.
Action Plan/Milestones.
See Action Plan/Milestone for Recommendation 4.1.

                                                11


                                                51

                                                                                        Report 99P00212
                                                            Improving EPA’s Great Lakes Program
                                                                                          Appendix 1
                                                                                         Page 13 of 15

Recommendation 4.1. We recommend that the Regional Administrator, Region 5 ensure
the Great Lakes strategy has input from all (former and new) parties during its
development.

We agree with the recommendation and have begun to implement it.
During early 1999, GLNPO, under the leadership of the Great Lakes National Program Manager,
led a number of discussions with a variety of key parties regarding Great Lakes Strategy renewal:
– During the October Great Lakes Planning Meeting, GLNPO’s management discussed the
     Strategy with representatives of State and Tribal natural resource agencies and
     environmental agencies, other EPA offices, including Regions 2 and 3 and ORD, and
     with other Federal agencies.
– At the November Midwest National Resource Managers Environmental Roundtable, a
     Great Lakes group comprised of representatives from USEPA and other Federal agencies
     met and discussed the renewal of the Strategy. The group generally supported renewal of
     the Strategy.
– In the Spring of 1999, we discussed our plans to renew the strategy with the Regional
     Tribal Operations Committee. Participants, including the Tribal Co-Chair, strongly
     supported a new Strategy.
– A series of meetings were held in December, February, March, and April to discuss a
     number of Great Lakes strategic issues with the State environmental directors and State
     water directors. The State environmental directors and water directors clearly supported
     renewal of the Great Lakes Strategy.
– Regional Team Mangers and other key Region 5 managers have participated in a number
     of the above-mentioned meetings and will fully be a part of the effort. In addition,
     Region 2 and Region 3 were invited to the Great Lakes portion of the State directors’s
     meetings (December and April) and participated in the December meeting via conference
     call. This coordination and communication will continue throughout the process.
Discussions thus far have been preliminary. Many additional important Great Lakes
stakeholders, including the Federal Research Community and interested Great Lakes Tribes, will
be brought into the process once we enter the development phase.
Action Plan/Milestones for Development of Great Lakes Strategy.
– Hold initial consultations on scope and nature of strategy                       Completed
– Develop draft plan for strategy process                                          Completed
– Request participation from lead Agencies                                         August ‘99
– Hold initial conference call                                                 September ‘99
– Hold first kick-off meeting                                                     October ‘99
– Brief US Policy Committee                                                    November ‘99
– Draft Strategy                                                         December/January ‘99
– Public Consultation                                                          February 2000
– Final Issues Resolved/Final Document Issued                                      April 2000
                                               12


                                               52

                                                                                      Report 99P00212
                                                             Improving EPA’s Great Lakes Program
                                                                                           Appendix 1
                                                                                          Page 14 of 15

Recommendation 4.2. We recommend that the Regional Administrator, Region 5 get
agreement from all parties to implement the strategy.

We agree with this recommendation and will develop methods to obtain the support and
agreement of key partners to the strategy.

We plan on doing this by closer communication with key management officials during the crucial
consensus building phase of the process, as well as devising an improved formal mechanism to
gain support for the strategy. We plan on discussing this more fully as we enter the strategy
development period.

Action Plan/Milestones.
See Action Plan/Milestone for Recommendation 4.1.



Recommendation 4.3. We recommend that the Regional Administrator, Region 5 focus the
strategy on overall goals, as opposed to activities.

We agree with this recommendation and will explore ways of implementing it.

We plan on continuing to focus our Great Lakes goals on protecting and restoring the chemical,
physical, and biological integrity of the Great Lakes basin ecosystem, the removal of beneficial
use impairments, and the virtual elimination of persistent toxic substances.

We have also received comments, though, that encourage greater specificity in the Strategy. The
Strategy must clearly articulate what will actually be carried out. It needs to be specific enough
for a wide variety of Agencies and managers, as well as the public, to understand what is
intended to be accomplished.

During the development of the Strategy, we will attempt to address both of these somewhat
contradictory objectives.

Action Plan/Milestones.
See Action Plan/Milestone for Recommendation 4.1.




                                                13




                                               53

                                                                                       Report 99P00212
                                                            Improving EPA’s Great Lakes Program
                                                                                          Appendix 1
                                                                                         Page 15 of 15

Recommendation 4.4. We recommend that the Regional Administrator, Region 5 include
performance measures and report progress against the measures.

We agree with this recommendation and will explore ways of implementing it.

There are a number of ways this could be done. The Government Performance and Results Act
calls for just such accountability and is applicable to the proposed parties to the Great Lakes
Strategy. Many of the State and Federal environmental programs develop and implement
Environmental Performance Partnership Agreements which already include performance
measures and progress reports. Some even have sections devoted to the Great Lakes. During the
development of the Strategy, we will explore these, and other, possibilities for measurement and
progress reports with respect to the Strategy, including subsequent development of an
implementation plan, annual meetings and/or conference calls, agreed delineation of Great Lakes
activities in work plans, etc.

Action Plan/Milestones.
See Action Plan/Milestone for Recommendation 4.1



Recommendation 4.5. We recommend that the Regional Administrator, Region 5 designate
GLNPO as responsible for working with the parties to the new strategy to ensure it is
implemented.

We agree with the recommendation and are already implementing it. GLNPO has been
designated as the lead, and has taken the lead, in developing a plan and approach for the new
Strategy. GLNPO will be working over the next year to ensure its completion and
implementation.

Action Plan/Milestones.
See Action Plan/Milestone for Recommendation 4.1.




                                               14




                                               54

                                                                                      Report 99P00212
                                                     Improving EPA’s Great Lakes Program
                                                                              Appendix 2
                                                                              Page 1 of 1

                                     DISTRIBUTION

Headquarters

      Assistant Administrator for Research and Development (8101R)
      Assistant Administrator for Water (6101)
      Assistant Administrator for International Activities (RRB 31207)
      Associate Administrator for Congressional and Intergovernmental Relations (1101)
      Associate Administrator for Communications, Education, and Public Affairs (1701)
      Agency Follow-up Official (3101)
       Attn: Assistant Administrator for Administration and Resource Management
      Agency Follow-up Coordinator (3304), Attn: Director, Resource Management Division
      Audit Follow-up Coordinator, Office of Research and Development (8102R)
      Headquarters Library (3404)

Region 5

      Regional Administrator (R-19J)
      Senior Leadership Team
      Audit Follow-up Coordinator (MFA-10J)
      Public Affairs (P-19J)
      Intergovernmental Relations Officer (R-19J)

Region 2

      Regional Administrator
      Audit Follow-up Coordinator

Region 3

      Regional Administrator (3RA00)
      Audit Follow-up Coordinator (3PM70)

Office of Inspector General

      Inspector General (2410)


                                             55

                                                                          Report 99P00212
